Nos. 19-1058 and -1061

Supreme Court of the United States
Hospira, Inc.,
Petitioner,
v.
Eli Lilly and Company,
Respondent.

Dr. Reddy’s Laboratories, Ltd., et al.,
Petitioners,
v.
Eli Lilly and Company,
Respondent.

On Petitions for Writs of Certiorari
to the United States Court of Appeals
for the Federal Circuit

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that I am a member of the Bar of this
Court representing a party on whose behalf service is made, and I served three copies of
the Brief of the R Street Institute as Amicus Curiae in Support of the
Petitions in the above-identified cases, upon all parties required to be served. Service
was performed by U.S. priority mail to counsel of record listed on the following page.
Respectfully submitted,
Dated: March 26, 2020
Charles Duan
R Street Institute
1212 New York Ave NW Ste 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org

LIST OF PARTIES SERVED
Adam G. Unikowsky
Jenner & Block LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001
202-639-6041
AUnikowsky@jenner.com
Counsel for Petitioner Hospira, Inc.
John Caviness O’Quinn
Kirkland & Ellis LLP
1300 Pennsylvania Avenue, NW
Washington, DC 20004
202-389-5191
john.oquinn@kirkland.com
Counsel for Petitioners Dr. Reddy’s Laboratories, Ltd., et al.
Adam Lawrence Perlman
Latham& Watkins LLP
555 Eleventh Street NW
Suite 1000
Washington, DC 20004
2026372200
adam.perlman@lw.com
Counsel for Respondent Eli Lilly and Company

